                  National Science Foundation • Office of Inspector General
                  4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230

MEMORANDUM


DATE:                 March 16, 2012

TO:                   Martha Rubenstein
                      Director / Chief Financial Officer,
                      Office of Budget, Finance, and Award Management
                      National Science Foundation

FROM:                 Dr. Brett M. Baker /s/
                      Assistant Inspector General for Audit

SUBJECT:              Audit of NSF’s Processes for Assessing its Financial and
                      Administrative Staffing Needs, Report No. 12–02-007


Attached please find the final report of our audit of processes to assess NSF Office of
Budget, Finance, and Award Management staffing needs. The report contains one
finding on the need for BFA to integrate its identification and evaluation of opportunities
to streamline its operations into its annual workforce planning process. We have
included NSF’s response as an appendix to the final report.

In accordance with Office of Management and Budget Circular A-50, Audit Followup,
please provide a written corrective action plan within 60 days to address the report
recommendation. This corrective action plan should detail specific actions and milestone
dates.

We appreciate the courtesies and assistance provided by so many NSF staff during the
audit. If you have any questions, please contact Marie Maguire, Senior Audit Manager,
at (703) 292-5009.

Attachment

cc:    Cora Marrett                                     Judith Sunley
       Clifford Gabriel                                 Allison Lerner
       Arthur K. Reilly                                 Marie Maguire
       Michael Van Woert                                 Kelly Stefanko
       Joanna Rom                                       Elizabeth Goebels
       Eugene Hubbard                                   Karen Scott
       Audit of NSF’s Processes for
Assessing its Financial and Administrative
               Staffing Needs




        National Science Foundation
        Office of Inspector General



               March 16, 2012
               OIG 12-2-007
Introduction
The National Science Foundation (NSF) is the funding source for approximately 20
percent of all federally supported basic research in science and engineering conducted
by the nation’s colleges and universities. NSF funds approximately 10,000 new awards
each year and as of June 2010, it had a portfolio of over 41,000 awards totaling $25.4
billion. These awards are mostly grants but also include cooperative agreements and
contracts.

NSF’s Office of Budget, Finance, and Award Management (BFA) has the responsibility
for issuing and financially monitoring and overseeing the thousands of awards NSF
makes each year. Specifically, BFA is responsible for assessing awardees’ ability to
perform and for monitoring how awardees manage award funds.

For Fiscal Year (FY) 2012 and FY 2011, NSF received appropriations of $7.0 billion and
$6.9 billion respectively. In FY 2009, NSF received an additional $3 billion under the
American Recovery and Reinvestment Act of 2009 (ARRA). However, ARRA did not
provide any funding for staffing to make, oversee, and manage these additional awards.
Even prior to the Recovery Act, NSF had far fewer full time equivalents (FTEs) than
staffing assessments indicated were needed, with ARRA creating additional workload.
We conducted this audit due to concerns about BFA’s ability to properly make and
oversee awards, particularly in light of its increased workload.


Audit Results
We initially focused our audit on determining whether BFA had a sufficient process in
place to assess its staffing needs for managing and overseeing the full lifecycle of its
grants and cooperative agreements. While we identified a few areas in which
improvements could be made in the staffing assessment processes NSF and BFA used,
it became clear that even if the processes were perfect, with the current fiscal
environment, gaps between the number of staff needed and the number funded would
continue. Thus, we shifted our focus to examining the need for NSF to use those
processes to seek alternative methods to accomplish its mission and provide oversight
in a more streamlined way within its current staffing limits. OMB Circular A-11 and
OPM’s Human Capital Assessment and Accountability Framework (HCAAF) suggest
that workforce planning processes can also be used in determining how to reengineer
processes.

We examined the following staffing assessments NSF has used as a basis to support
management decisions on staffing levels:

   1. Weighted Workload Analysis – NSF’s Human Resource Management Division
      (HRM) developed this model to measure and aggregate typical program office
      workload. BFA staffing levels are then determined by applying a ratio of office

                                           1
      staff to program staff, using an average of several years’ information. This
      process provides concrete data to support NSF’s agency-wide staffing requests
      to Congress.

   2. Staffing Planning Process – HRM annually asks each Directorate and Office to
      respond to various funding scenarios. This allows NSF to consider how it would
      accomplish its work with less than the ideal number of staff.

   3. Full Time Equivalent Requests – Each Directorate and Office provides the
      Office of the Director with a request and the rationale for FTE needed. The
      Office of the Director considers these requests in allocating FTEs once NSF
      receives funding from Congress.

We found that NSF has attempted to base its staffing requests on concrete data and
has conducted staffing assessments to make decisions about how many staff it needed.




We found that BFA did not use the staffing assessments to change its processes to
create more cost effective ways to manage its workload or to prioritize work that adds
value and eliminate work that did not advance its mission. As NSF staff stated, studying
how to reengineer BFA’s process takes time and resources, which are already scarce.
However, because significant increases of FTEs are unlikely, NSF needs to invest time
and resources to determine alternative ways to accomplish its mission and provide
oversight in a more streamlined way within its current FTE limits.

Per the HCAAF, NSF should use workforce planning to make decisions related to
restructuring, redeployment, and reorganization. The HCAAF indicates that agencies
can use workforce planning to determine how to streamline functions and consolidate
organizational elements. In the current environment of increased concern about both
accountability of Federal funds and budget constraints, BFA needs to find new and cost-
effective ways to ensure that NSF recipients, especially high-risk ones, have the
financial capability to properly manage federal funds.

As a result of not having sufficient staffing, BFA has had to reduce the number of site
visits to monitor high-risk awardees. BFA cancelled six planned site visits in both FY
2010 and FY 2011. In addition, BFA stated that its increased workload has impacted its
ability to resolve audit recommendations in a timely fashion. The number of audit
reports with questioned costs that were not resolved within six months grew from zero in
FY 2003 to 26 in FY 2010. It is important for questioned costs to be resolved swiftly so
funds can be returned to the Federal government and awardees’ financial management
deficiencies can be addressed before additional funds are placed at risk. Furthermore,
a growing number of NSF staff perceives that their workload is unreasonable. A 2010
workload study conducted on one BFA division found, in discussions with staff and



                                           2
leadership, substantial potential for early retirements, job burnout, and turnover, which
was in part due to dissatisfaction with workload.


Recommendation
We recommend BFA integrate its identification and evaluation of opportunities to
streamline its operations into its annual workforce planning process to ensure sound
financial management and oversight of awardees based on staffing levels. In looking at
ways to streamline work, we suggest that BFA management consider the use of data
analytics to identify higher risk issues and permit limited human capital resources to
focus on those higher risk issues.


Summary of Agency Response and OIG Comments
In its response, NSF concurred with the OIG’s recommendation and noted that
optimizing the deployment of NSF’s human resources is an ongoing challenge.
Accordingly, BFA stated that it would address the use of streamlining in its annual
workforce planning process.

We consider management’s comments and planned actions to be responsive to our
recommendation. We look forward to receiving the Corrective Action Plan and working
with NSF officials to confirm its implementation.

We have included NSF's response to this report in its entirety as Appendix A.




                                             3
Appendix A: Agency’s Response




                          4
Appendix B: Objective, Scope and Methodology
The objective of the audit was to determine whether NSF has sufficient processes in
place to assess its staffing needs for managing and overseeing the entire lifecycle of its
awards to ensure that program outcomes are achieved. Because financial and
administrative services are critical to this function, our audit focused on the NSF Office
of Budget, Finance and Award Management (BFA), which has primary responsibility for
providing these services. We conducted the performance audit from March 2011 to
February 2012 at NSF headquarters in Arlington, Virginia.

To complete our objective, we reviewed documents detailing NSF’s staffing planning
processes and human capital management plan and progress. We also interviewed
staff in the NSF Office of Information and Resource Management, Office of the Director,
and BFA to gain an understanding of their procedures and roles with respect to staffing
assessments.

We reviewed NSF’s compliance with applicable provisions of pertinent laws and
guidance including 5 CFR 250.203, which requires agencies to conduct a workforce
analysis. We did not identify any instance of noncompliance with these laws and
regulations.

Through interviewing NSF staff and reviewing documentation, we also obtained an
understanding of the management controls over staffing planning processes. We did
not identify any internal control deficiencies with those process or any instances of
fraud, illegal acts, violations, or abuse.

During the course of this audit, we relied on information and data received from NSF in
electronic format that had been entered into a computer system or that resulted from
computer processing. We tested the reliability of NSF’s computer-processed data
where feasible and also corroborated the reasonableness of the data with NSF officials.
We concluded that the computer-processed data were sufficiently reliable.

We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis of our
findings and conclusion based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusion based on our audit
objective.

We held an exit conference with NSF management on February 29, 2012.




                                            5
